<html>
<title> - ASTRONOMY, ASTROPHYSICS, AND ASTROBIOLOGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        ASTRONOMY, ASTROPHYSICS,
                            AND ASTROBIOLOGY

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON SPACE &
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 12, 2016

                               __________

                           Serial No. 114-87

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              ____________
                              
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
20-916PDF                     WASHINGTON : 2017                        
_______________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3255425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>  
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEPHEN KNIGHT, California           PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama                   ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
STEVE KNIGHT, California             EDDIE BERNICE JOHNSON, Texas
WARREN DAVIDSON, Ohio
LAMAR S. SMITH, Texas
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. McCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
BRUCE WESTERMAN, Arkansas            SUZANNE BONAMICI, Oregon
GARY PALMER, Alabama                 ERIC SWALWELL, California
RALPH LEE ABRAHAM, Louisiana         EDDIE BERNICE JOHNSON, Texas
DARIN LaHOOD, Illinois
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             July 12, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    17

Written statement submitted by Representative Eddie Bernice 
  Johnson, Ranking Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    20

                               Witnesses:

Dr. Paul Hertz, Director, Astrophysics Division, NASA
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Jim Ulvestad, Director, Division of Astronomical Sciences, 
  NSF
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Angela Olinto, Chair, Astronomy and Astrophysics Advisory 
  Committee (AAAC), and Homer J. Livingston Professor, Department 
  of Astronomy and Astrophysics, Enrico Fermi Institute, 
  University of Chicago
    Oral Statement...............................................    39
    Written Statement............................................    41

Dr. Shelly Wright, Assistant Professor, University of California, 
  San Diego, Center for Astrophysics and Space Sciences, 
  Breakthrough Listen Advisory Committee
    Oral Statement...............................................    48
    Written Statement............................................    50

Dr. Christine Jones, Senior Astrophysicist, Smithsonian 
  Astrophysical Observatory,President, American Astronomical 
  Society
    Oral Statement...............................................    59
    Written Statement............................................    61

Discussion.......................................................    73

             Appendix I: Answers to Post-Hearing Questions

Dr. Paul Hertz, Director, Astrophysics Division, NASA............    94

Dr. Jim Ulvestad, Director, Division of Astronomical Sciences, 
  NSF............................................................   115

Dr. Angela Olinto, Chair, Astronomy and Astrophysics Advisory 
  Committee (AAAC), and Homer J. Livingston Professor, Department 
  of Astronomy and Astrophysics, Enrico Fermi Institute, 
  University of Chicago..........................................   134

Dr. Shelly Wright, Assistant Professor, University of California, 
  San Diego, Center for Astrophysics and Space Sciences, 
  Breakthrough Listen Advisory Committee.........................   139

Dr. Christine Jones, Senior Astrophysicist, Smithsonian 
  Astrophysical Observatory, President, American Astronomical 
  Society........................................................   144

            Appendix II: Additional Material for the Record

Documents submitted by Representative Brian Babin, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   156

 
                        ASTRONOMY, ASTROPHYSICS,
                            AND ASTROBIOLOGY

                              ----------                              


                         TUESDAY, JULY 12, 2016

                  House of Representatives,
                            Subcommittee on Space &
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The subcommittees met, pursuant to call, at 10:11 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Brian Babin 
[Chairman of the Subcommittee on Space] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. The Subcommittees on Space and Research and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the subcommittees at any 
time.
    Welcome to today's hearing entitled ``Astronomy, 
Astrophysics, and Astrobiology.'' And now, I recognize myself 
for five minutes for an opening statement.
    The science of astronomy, astrophysics, and astrobiology 
expands mankind's understanding of the universe. It seeks to 
answer fundamental questions as to the nature of our universe, 
our place within it, and whether there is life beyond Earth.
    NASA has a long history of space-based astrophysics and 
astronomical science. Since the 1960s, NASA has operated space-
based observatories. Among the most famous of these are the 
Hubble Space Telescope, which has produced some of the clearest 
images of the universe to date. The Hubble Space Telescope 
became the first of NASA's four Great Observatories, which 
aimed to observe the universe over the entire electromagnetic 
spectrum and would go on to include the Compton Gamma Ray 
Observatory, the Chandra X-ray Observatory, and the Spitzer 
Space Telescope.
    Looking to the future, the James Webb Space Telescope or 
JWST is set to launch in 2018. This will be the most powerful 
space-based observatory to date and will be used to search for 
planets outside of our solar system that could harbor life.
    In my own district at Johnson Space Center, in Houston, 
NASA's historic Chamber A thermal vacuum testing chamber will 
be used for end-to-end testing of JWST's optics in a simulated 
cryo-temperature and vacuum space environment. I'm proud to 
represent the hardworking men and women at the Johnson Space 
Center who have contributed and are contributing to JWST, our 
nation's next great space-based observatory.
    In fiscal year 2016, NASA was appropriated approximately 
$1.35 billion for astrophysics and astronomy. This investment 
of our tax dollars funds the operation and development of 
NASA's space-based observatories and the science that's it's 
produced. And while I believe that this is a worthwhile 
investment, I also have an obligation to ensure NASA's programs 
are administered wisely.
    To that end, this Committee continues to closely monitor 
major NASA programs such as JWST and the Transiting Exoplanet 
Survey Satellite or TESS. As JWST and TESS progress through the 
critical integration and testing phase this year and next, I 
expect regular updates from NASA on progress made and the 
information about any potential issues well in advance.
    The science priorities for NASA's astronomy and 
astrophysics activities are strongly informed by the National 
Academy of Sciences' decadal surveys. The priorities selected 
for the decade of 2012 to 2021, as outlined in the New Worlds, 
New Horizons in Astronomy and Astrophysics decadal survey, were 
to search for the first celestial bodies created in the 
universe and seek out nearby Earth-like planets suitable for 
habitation, and advance our understanding of astrophysics and 
the laws by which the universe operates. We are roughly halfway 
into the prescribed decadal and look forward to hearing about 
the progress we've made toward achieving these very goals.
    Since the 2012 decadal, there have also been numerous 
scientific achievements that continue to inform NASA's 
astrophysics and astronomy programs. Perhaps one of the most 
remarkable achievements of the last several years is the 
discovery of Earth-like exoplanets orbiting distant suns. A 
little over two decades ago, the only planets known to mankind 
were those within our solar system. In the past decade, 
scientists have confirmed the existence of nearly 3,000 
exoplanets throughout the universe, with at least eight of 
these exoplanets being roughly the size of Earth and residing 
in a habitable range of their stars.
    This hearing also allows us an opportunity to inform the 
next decadal survey for astronomy and astrophysics for which 
NASA has already initiated studies. Outside organizations have 
already begun to discuss possibilities as well. And with the 
aforementioned discoveries of exoplanets and the likely 
operation of JWST in the coming years, there appears to be many 
areas ripe for future investigations.
    It is also important to acknowledge the numerous scientific 
contributions made by private citizens, amateur astronomers, 
and non-government organizations. Citizen scientists conduct 
observations and analysis of vast astronomical data sets. This 
is a good thing because citizen science enhances public 
engagement and helps inspire the next generation of young 
students to pursue careers in astronomy, astrophysics, and 
astrobiology.
    I want to thank today's witnesses for joining us as we 
discuss these very important issues, and I look forward to 
hearing each of your testimonies.
    [The prepared statement of Chairman Babin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. And now, before I recognize the Ranking 
Member, I would like to ask unanimous consent to enter into the 
record two letters relevant to the hearing submitted by the 
Association of Universities for Research and Astronomy and the 
Arecibo Science Advocacy Partnership. Without objection, I so 
order.
    [The information appears in Appendix II]
    Chairman Babin. Now, I recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much. Good morning, Mr. 
Chairman. I appreciate that you're holding this hearing this 
morning on astronomy, astrophysics, and astrobiology. I want to 
also welcome our distinguished panel of witnesses this morning, 
and I apologize for our delay.
    You know, throughout human history we've looked to the 
stars to measure the passage of time, to navigate our ships, 
and to decide when to plant our crops. While the study of the 
night sky has practical benefits to society, its real value is 
far less tangible but not less important. Astronomy opens our 
eyes. It offers a new way to look at the world. And when 
Copernicus discovered that the Earth orbits the sun, it started 
a revolution. And when astronomers discovered that stars are 
made of the same elements as we are, it deepened our connection 
to stars and galaxies that are unimaginably far away.
    The recent explosion in exoplanet discoveries has brought 
us closer to finding out if life is common or rare throughout 
the universe. Many fundamental questions remain, and it's our 
job to ensure that scientists have the tools they need to 
address them.
    In February this Committee held a hearing to celebrate and 
learn more about the first-ever detection of gravitational 
waves. If we learned anything, it's that investing in science, 
even when there is no foreseeable concrete benefit to society, 
does indeed pay off. Large telescopes like the James Webb Space 
Telescope and Wide Field Infrared Survey Telescope, the Large 
Synoptic Survey Telescope, are critical to the next generation 
of astronomers.
    We often express our support for science, engineering, 
technology and math education, but those efforts are wasted if 
we don't make decisions now to ensure the development of 
researchers, facilities, and missions that will enable them to 
do their work. Astronomical discoveries resonate with the basic 
human drive to understand our surroundings. The awe they 
inspire is perhaps the reason that astronomy is one of the most 
accessible fields of science to the general public. Astronomy 
serves as a gateway for students who may not otherwise enter a 
science discipline. And every year nearly 400 students receive 
bachelor's degrees in astronomy. Many students who start out 
studying astronomy go on to pursue careers in medicine, 
engineering, and data science.
    In addition to attracting more students to study science, 
astronomy inspires members of the public to pay attention and 
even to participate in astronomy. The Hubble Space Telescope 
made a huge impact on the public's engagement in astronomy. It 
is often called ``the people's telescope'' because its 
beautiful images brought the awe-inspiring sights of the cosmos 
into classrooms and living rooms around the world.
    Citizen science has deep roots in astronomy. Amateur 
astronomers have discovered supernova, comets, and asteroids 
and even exoplanets. With the advent of the Internet, an even 
broader group of the public is now able to contribute to 
research efforts led by the astronomy community.
    This morning's hearing will give us a chance to discuss the 
compelling questions astronomers have dedicated their careers 
to answering, as well as the programs, facilities, and missions 
that are necessary to enable their investigation into those 
questions.
    We live in an era of multi-messenger astronomy. We can see 
the universe with light, with particles, and now with 
gravitational waves. And as we look ahead, we must acknowledge 
that the measurements that are required to advance future 
astronomical investigations are rapidly evolving. We need to 
plan ahead to ensure that development of cutting-edge detectors 
and analysis software keeps pace with the needs of scientists.
    We have the chance to speak to the leaders of the astronomy 
community today and to find out where astronomy is going. And 
one thing is clear. We in Congress need to provide the 
resources needed to ensure that all areas of science, including 
astronomy, can continue to carry out groundbreaking discoveries 
in the years to come.
    And again, I'd like to thank our witnesses for being here, 
and I look forward to your testimony.
    And I also want to acknowledge by my side today are staff 
Sara Barber who is a fellow with us and has about six weeks, 
and I told her how lucky she was that, as an astronomer, she 
gets to be at this hearing.
    And so thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Edwards follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Yes, ma'am. Thank you.
    I'd like to recognize one of my interns out there, a 
student from Texas A&M University from my hometown of 
Woodville, Texas, and that's Miss Sarah Reese. Good to have 
you, Sarah.
    Ms. Edwards. Both Sarahs.
    Chairman Babin. That's right.
    Now, I'd like to introduce the Chairwoman on the 
Subcommittee on Research and Technology, Mrs. Comstock, the 
gentlewoman from Virginia.
    Mrs. Comstock. Thank you, Mr. Chairman. And I also welcome 
your A&M student. I have family down in Bryan, Texas, so a 
great university there.
    Since 2000, seven of the eight people to receive Nobel 
Prizes for astrophysics work have been American scientists. The 
United States has had tremendous achievements in astrophysics 
and astrobiology research. Taxpayer-supported grants from the 
National Science Foundation fund much of this groundbreaking 
research. In fiscal year 2016, NSF will spend over $246 million 
to support the astronomical sciences. That money goes toward an 
incredible variety of projects, from funding facilities like 
the Green Bank Telescope in West Virginia, to small research 
grants given to faculty and students at universities around the 
country.
    It has been a productive year for federally funded 
astrophysics research. The biggest achievement was the 
detection of gravitational waves at the LIGO Observatory, this 
past September, proving part of Einstein's theory of 
relativity. Just a couple of weeks ago, LIGO announced a second 
discovery. This amazing project was able to detect ripples in 
space-time caused by a collision of black holes 1.3 billion 
light years away from fields in Washington and Louisiana. LIGO 
and its predecessors have been funded by NSF for over 30 years, 
and its top scientists will almost certainly receive a Nobel 
Prize.
    Some of NSF's most interesting astronomy projects are still 
in the works. The Large Synoptic Survey Telescope, or LSST, 
will produce an incredibly detailed picture of the full night 
sky every three nights for a decade. It will make its findings 
available to the public as it goes along, resulting in the 
world's largest public data set. And I think this is 
particularly exciting when you look at all these projects and 
how the public can participate, how all of our online capacity 
can bring this into every classroom, every part of the country, 
really every part of the world, wherever there might be some 
kind of device that can view it on and interact. And that's a 
really exciting aspect of it.
    The Daniel K. Inouye Solar Telescope is another important 
upcoming project. Scheduled to start operating in 2018 in 
Hawaii, it will produce the most detailed images of the sun 
ever by a ground-based device. NSF-funded astronomy programs 
are among the largest sources of international collaboration 
for American scientists. In particular, the Gemini Observatory 
and the Atacama Large Millimeter Array are multinational 
projects which each involve at least five nations and would not 
be possible for any of them to accomplish individually.
    Still, NSF's astronomy program faces questions going 
forward. The Arecibo Observatory, long one of the premier sites 
it funds in Puerto Rico, is nearing the end of its lifecycle. 
NSF needs to decide what it will do with the facility, which 
many in the scientific community believe can still contribute 
to furthering scientific discoveries and providing education 
opportunities.
    It is in our nation's best interest to continue our 
commitment to researching the fundamental nature of the 
universe. Breakthroughs like the detection of gravitational 
waves inspire the next generation of scientists.
    For the American economy to be successful in the 21st 
Century, we need to have that skilled labor force and workforce 
that understands innovation and emerging technologies and 
leads.
    And I wanted to particularly note today I'm very pleased to 
see the balance of women here in our panel. Having passed the 
INSPIRE Act here earlier on this Committee, it's really--
actually, you're outnumbering the men today, so that's 
particularly exciting also. So we're really look forward to you 
inspiring the next generation of leaders, and I look forward to 
hearing from this panel of accomplished witnesses this morning, 
one of whom directs all astronomical science projects at NSF. 
So thank you.
    [The prepared statement of Mrs. Comstock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Chairwoman Comstock.
    Now, I'd like to recognize the Chairman of our Full 
Committee, the gentleman from Texas, Chairman Smith.
    Chairman Smith. Thank you, Chairman Babin.
    The science of astronomy goes back millennia and is one of 
the oldest of the natural sciences. Astrophysics, the 
application of physics to understand the nature of the 
universe, is a relativity new scientific field that has 
blossomed in the last few years.
    Space-based observations from telescopes like the Hubble 
Space Telescope have amazed us for decades, and the James Webb 
Space Telescope is only a couple of years away from launch. 
Recently, we have seen amazing discoveries of planets outside 
our solar system and the detection of gravitation waves. This 
is just the beginning. Many more amazing discoveries await us.
    NASA's Chief Scientist, Dr. Ellen Stofan, recently 
testified before this Committee that ``with future technology 
and instruments currently under development, we will explore 
the solar system and beyond, and could indeed--perhaps in as 
little as 10-20 years--discover some form of life, past or 
present.''
    Since 1995, over 3,000 exoplanets have been identified, 
with several found to be in the ``habitable zone'' where a 
planet with sufficient atmospheric pressure can maintain liquid 
water on its surface. The Kepler spacecraft discovered many of 
these exoplanets and led scientists to estimate that as many as 
11 billion rocky, Earth-sized exoplanets could be orbiting in 
the habitable zones of sun-like stars in the Milky Way alone.
    Kepler's successes in hunting exoplanets will continue with 
the launch of the Transiting Exoplanet Survey Satellite in 2017 
and be augmented by the capabilities of the James Webb Space 
Telescope, the Wide Field Infrared Space Telescope, and ground-
based telescopes such as the Large Synoptic Survey Telescope, 
or LSST. The LSST may be able to peer into the atmospheres of 
these exoplanets and conduct spectroscopy to determine the 
composition of their atmospheres.
    While partnerships between the private and public sector in 
astronomy are well established, these ties need to be 
strengthened when it comes to exoplanet surveys and exploration 
related to astrobiology. Private sector groups like the 
Breakthrough Listen project provide funding opportunities to 
leverage limited government funding to maximize discovery.
    Going forward, I hope that NASA, NSF, and academia will 
expand public-private partnerships to advance optical laser 
transmission surveys, as it is a promising and exciting field 
of inquiry.
    Mr. Chairman, I look forward to our witnesses' testimony 
today. With representation from the NASA, the NSF, the 
Astronomy and Astrophysics Advisory Committee, the American 
Astronomical Society, and the Breakthrough Listen Project, we 
have the opportunity to hear a number of perspectives on the 
subjects of astronomy, astrophysics, and astrobiology.
    Thank you and yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Chairman.
    Now, I'd like to recognize the gentlewoman from Maryland 
for a statement on behalf of Ranking Member Johnson.
    Ms. Edwards. Thank you, Mr. Chairman.
    Just for the record, we've entered the Ranking Member Eddie 
Bernice Johnson's statement in the record today, and she 
regrets that she is not able to be here today. She is attending 
the memorial service in Dallas today. Thank you. And I yield 
back.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you. Now, let me introduce our 
witnesses for today's hearing. And our first witness today is 
Dr. Paul Hertz, Director of the Astrophysics Division at NASA. 
Dr. Hertz is responsible for the agency's research programs and 
missions necessary to discover how the universe works and 
explore how the universe began and developed into its present 
form and to search for Earth-like planets. Dr. Hertz received a 
B.S. degree in both physics and mathematics from MIT followed 
by a Ph.D. from Harvard University in astronomy.
    Our second witness today is Dr. Jim Ulvestad. I hope I 
pronounced that right.
    Dr. Ulvestad. Ulvestad.
    Chairman Babin. Okay. Ulvestad. Is that it?
    Dr. Ulvestad. Ulvestad.
    Chairman Babin. Ulvestad, okay. Jim Ulvestad, Director of 
the Division of Astronomical Sciences at NSF. In this role he 
leads a staff of 25 and oversees an annual budget of $246 
million plus major observatory construction projects with an 
additional budget of $100 million in fiscal year 2016. He 
earned a bachelor's degree from the University of California at 
Los Angeles and a Ph.D. in astronomy from the University of 
Maryland.
    Our third witness today is Dr. Angela Olinto, Chair of the 
Astronomy and Astrophysics Advisory Committee, or AAAC, and the 
Homer J. Livingston professor in the Department of Astronomy 
and Astrophysics at the Enrico Fermi Institute at the 
University of Chicago. Dr. Olinto is the principal investigator 
of the Extreme Universe Space Observatory on a super pressure 
balloon mission and a member of the international collaboration 
of the Pierre Auger Observatory. She received her bachelor of 
science in physics from the Pontificia Universidad Catolica of 
Rio de Janeiro in Brazil and her Ph.D. in physics from MIT.
    Our fourth witness is Dr. Shelley Wright, member of the 
Breakthrough Listen Advisory Committee and assistant professor 
at the University of California in San Diego. Dr. Wright has 
extensive experience working with optical infrared 
instrumentation with a particular focus on imaging cameras and 
spectrographs that operate behind adaptive optics systems on 
large telescopes. She currently serves as project scientist for 
the first light instrument or IRIS for the future Thirty Meter 
Telescope. Dr. Wright received her bachelor of science in 
physics at the University of California in Santa Cruz and her 
Ph.D. from UCLA.
    Our final witness of today is Dr. Christine Jones, who is 
President of the Astronomical American astronomical Society and 
senior astrophysicist at the Smithsonian Astrophysical 
Observatory. Throughout her career, Dr. Jones is worked on a 
variety of research topics, but most recently her research is 
focused on x-ray studies of the hot gas and galaxies and galaxy 
clusters using the Chandra X-ray Observatory. Dr. Jones earned 
her A.B., her M.A., and her Ph.D. degrees in astronomy at 
Harvard University.
    So thank you all, distinguished witnesses, for being here 
today. And I now recognize Dr. Hertz for five minutes to 
present his testimony.

             TESTIMONY OF DR. PAUL HERTZ, DIRECTOR,

                  ASTROPHYSICS DIVISION, NASA

    Dr. Hertz. Thank you, Mr. Chair.
    Members of the Committee, I am pleased to appear before you 
to discuss the current and future astrophysics programs at 
NASA.
    How did our universe begin and evolve? How did the familiar 
night sky of galaxies, stars, and planets come to be? And are 
we alone in the universe? These are the enduring questions that 
humankind has been asking since we first looked up at the sky, 
and now, for the first time, we are able to answer those 
questions scientifically. We're probing back in time with the 
Hubble Space Telescope detecting faint infrared signals from 
galaxies that formed 13 billion years ago, only 400 million 
years after the Big Bang.
    Hubble and the Chandra X-ray Observatory are working to 
gather to study supermassive black holes showing how they 
formed in the early universe and how they triggered birth of 
stars and galaxies. And NASA is developing two new space 
observatories to further advance our understanding of the 
cosmos: the James Webb Space Telescope, which will launch in 
2018, will detect the light from the first stars and galaxies 
that formed after the Big Bang; and the Wide Field Infrared 
Survey Telescope, or WFIRST, will launch in the mid-2020s and 
help us understand the mysterious dark energy that is 
propelling the acceleration of our universe.
    Understanding the origins of galaxies and stars leads us to 
an understanding of how planets formed, including planets 
capable of supporting life. Our knowledge of planets outside of 
our solar system, exoplanets, has exploded in the last 20 
years. Thanks to the pioneering discoveries made with ground-
based observatories followed by the Kepler Space Telescope, we 
now know that planets orbiting other stars are common. For four 
years Kepler measured the light from 150,000 stars staring at 
them 24 hours a day, seven days a week, 365 days a year and 
discovered at least 5,000 exoplanet candidates around those 
stars.
    The exoplanets discovered so far are astounding in their 
diversity. One is a rocky hot planet locked by gravity with one 
side always facing its star, wild swings in temperature that 
hint at a surface bubbling with rivers of lava. Another is a 
scorching alien world where it rains glass sideways with winds 
of 4,500 miles per hour. And another is half the size of 
Jupiter but speeds around its star in only four days instead of 
the leisurely 12 years that Jupiter takes to orbit our sun.
    Hubble Space Telescope has detected the most distant 
exoplanet known and has measured the atmospheric composition of 
many exoplanets using the parent star's light filtered through 
the exoplanet's atmosphere. And the Spitzer Space Telescope has 
probed the temperature and atmospheric composition and even 
weather on distant exoplanets.
    But the most compelling search is for the rocky planets 
that, like the Earth, might be capable of supporting life. To 
date we have found nine roughly Earth-sized planets located in 
the habitable zone of their parent stars, but this type of 
planet lies at the limits of what we can discover using our 
current generation of space telescopes. The Webb telescope will 
examine the makeup of known exoplanets through both transit 
spectroscopy and direct imaging. And the new observatories 
coming online will discover new exoplanets for study by Webb: 
the Transiting Exoplanet Survey Satellite test and the 
previously mentioned WFIRST.
    Now, one thing that Hubble, Chandra, Spitzer, Webb, and 
WFIRST all have in common is that they were recommended by a 
decadal survey. As the time approaches for the next decadal 
survey, NASA has initiated mission concept studies to inform 
the next decadal survey's deliberations.
    Following the recommendations of our advisory groups, we 
have identified four large mission concepts to study. What type 
of science might we expect from future NASA space 
observatories? An x-ray surveyor might discover the first 
generation of supermassive black holes and explain in the early 
universe and determine the influence of dark matter on the 
evolution. A far infrared surveyor might find biosignatures in 
the atmospheres of exoplanets and explain the origins of the 
dust and molecules that serve as the prerequisites for life. An 
ultraviolet visible infrared surveyor with a large mirror might 
capture the first starlight in the early universe, detect water 
worlds and biomarkers on distant Earth-like planets and image 
the icy plumes from moons of giant planets in our own solar 
system. An inhabitable exoplanet imaging mission might search 
for signs of habitability in the atmospheres of planets 
orbiting stars in our Milky Way galaxy.
    We're fortunate to live during a time when grand scientific 
quests are possible and in a country that values the curiosity 
and discovery as inherently noble pursuits. And at NASA we're 
thankful to Congress for its continued support.
    So thank you, and I'll be pleased to answer any questions 
the Committee might have.
    [The prepared statement of Dr. Hertz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Dr. Hertz.
    Now, I'd like to recognize Dr. Ulvestad for his opening 
statement.

            TESTIMONY OF DR. JIM ULVESTAD, DIRECTOR,

             DIVISION OF ASTRONOMICAL SCIENCES, NSF

    Dr. Ulvestad. Thank you, Chairman. Chairman Babin, Ranking 
Member Edwards, Chairwoman Comstock, Chairman Smith, and 
members of the subcommittees, we thank you for the opportunity 
for the National Science Foundation to discuss the exciting 
progress in astronomy, astrophysics, and astrobiology and the 
outlook for the future. This remarkable progress is the product 
of sustained taxpayer support through representatives such as 
yourselves and the long-term effort of the basic research 
community represented here on my left.
    For millennia, humans have viewed light from the sky to 
learn about the universe. Today, we observe across the 
electromagnetic spectrum from radio waves to gamma rays and are 
ready to look at the universe in new ways. Particles such as 
neutrinos and cosmic rays provide a different view, and 
gravitational waves give yet another.
    In this new era of multi-messenger astrophysics, NSF has a 
leadership role. The sixth Astronomy and Astrophysics Decadal 
Survey was delivered in 2010 by the National Academies. The 
survey stressed the importance of supporting individual 
investigator research, as well as developing forefront 
observatories.
    Three principal science areas were identified: cosmic dawn, 
searching for the first stars, galaxies, and black holes; new 
worlds, seeking nearby habitable planets; and physics of the 
universe, understanding scientific principles. These scientific 
areas represent enduring human quests. Take new worlds as an 
example. The Atacama Large Millimeter/submillimeter Array, 
ALMA, was recently completed by NSF and its international 
partners.
    [Slide.]
    You see before you the recent ALMA image of the star HL Tau 
450 light-years away, which shows rings of gas and dust 
circling the star. The gaps in those rings indicated by the 
dashed lines are swept out by planets just as Saturn satellites 
sweep out gaps in its famous ring system.
    NSF and NASA are collaborating on a new instrument to 
measure the velocities of stars precisely and detect motions 
influenced by planets having masses similar to Earth's. This 
instrument will be installed on the university- and NSF-
supported wind telescope in 2018. Finding and characterizing 
Earth-like planets is an important step in understanding how 
planetary systems form and evolve and ultimately whether they 
can host life.
    NSF and its awardees also are constructing two major 
observatories recommended by decadal surveys and funded by 
Congress. The Daniel K. Inouye Solar Telescope, which you see 
before you--that's an actual image, not an artist's 
conception--is being built on the island of Maui. Its 
observations will provide a deeper understanding of the sun's 
processes. Those processes lead to the activity that we call 
space weather, which has the potential to significantly impact 
communication and navigation systems in space and on the 
ground, power grids, and astronaut safety.
    NSF, with DOE and private partners, leads the construction 
of the Large Synoptic Survey Telescope, LSST. LSST is the 
highest priority ground-based recommendation of the last 
decadal survey, and it will revolutionize modern astrophysics. 
LSST will discover thousands of potentially hazardous near-
Earth asteroids. It will enable contributions by citizen 
scientists who will use its data sets to participate in the 
excitement of astronomical discovery.
    NSF has also responded to another decadal survey 
recommendation by initiating a midscale innovations program. 
This initiative is an ideal hands-on training ground for young 
scientists and instrument-builders who will participate in the 
great observatories of the future.
    When I left graduate school, we did not know that the 
expansion of the universe was accelerating, that there were 
thousands of other solar systems, or that we would detect 
gravitational waves from merging black holes. Those discoveries 
relied on many years of support for individual investigators on 
spectacular computer simulations and on frontier observatories.
    With NSF observatories such as ALMA, the Laser 
Interferometer Gravitational-Wave Observatory, and the IceCube 
Neutrino Observatory, we are moving rapidly into an era of 
multi-messenger astrophysics. NSF is proud to work with our 
many partners and the broad community of scientists. We are 
poised to continue a journey of discovery on behalf of the 
American public, and we thank you and all U.S. taxpayers for 
your support.
    This concludes my testimony and I'd be happy to answer any 
questions.
    [The prepared statement of Dr. Ulvestad follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very, very much.
    And now, I recognize Dr. Olinto for five minutes to present 
her testimony.

             TESTIMONY OF DR. ANGELA OLINTO, CHAIR,

                   ASTRONOMY AND ASTROPHYSICS

                   ADVISORY COMMITTEE (AAAC),

               AND HOMER J. LIVINGSTON PROFESSOR,

           DEPARTMENT OF ASTRONOMY AND ASTROPHYSICS,

         ENRICO FERMI INSTITUTE, UNIVERSITY OF CHICAGO

    Dr. Olinto. Thank you, Mr. Chairman.
    Chairman Babin, Chairwoman Comstock, Ranking Member 
Edwards, Ranking Member Lipinski, Members of the Subcommittee, 
and Chairman Smith, thank you so much for having us come here 
today and it's a pleasure for me to share findings of the 
Astronomy and Astrophysics Advisory Committee. I'm Angela 
Olinto, professor of astronomy and astrophysics at the 
University of Chicago and the current Chair of the AAAC, which 
is a FACA committee of 13 scientists charged to assess the 
coordination of astronomy and astrophysics programs of the NSF, 
NASA, and the DOE. And also we assess the status of the 
activities relating to the priorities of the decadal surveys of 
the National Academies.
    Over the last few decades, astronomers and astrophysics 
have revolutionized our understanding of the universe, our 
place in it, and the fundamental laws that govern its evolution 
and the systems within it. These impressive achievements are a 
direct result from the long-standing national investment in 
basic scientific research. I thank the Committee and its role 
and continuing support for basic science.
    This year, the world celebrated the historic breakthrough 
of the first observations of gravitational waves by LIGO. This 
landmark discovery discussed here in February demonstrates the 
power of long-term investment in basic research by the United 
States through the NSF and the ability of scientists worldwide 
to work together in the challenging and fascinating quest to 
understand nature.
    This new window enables direct observations of the most 
extreme events of our universe including the earliest moments 
of the Big Bang. Primordial gravitational waves may soon be 
discovered by the studies of cosmic microwave backgrounds, 
while a future gravitational wave space mission reached an 
important milestone this year, the success of the LISA 
Pathfinder.
    Gravitational waves add a new dimension to traditional 
astronomy, which is based on the broad electromagnetic 
spectrum. Together with cosmic rays and neutrinos the multi-
messenger universe is now observed with frequencies spanning 35 
orders of magnitude. If we translate that to music, it is 
equivalent to a piano with 116 octaves instead of the usual 
seven, which would be 83 foot piano, twice the size of this 
room. We need a lot of hands and bright minds to play such an 
instrument.
    Astronomy and astrophysics contributes to astrobiology in 
many areas, most prominently in the study of new worlds or 
exoplanets, one of the three main science things of the 2010 
decadal survey. The diversity of the discovered new worlds have 
surprised us all. They are much more numerous and diverse than 
the most creative science fiction imagined.
    An active program to characterize exoplanets, their 
services and atmospheres, uses both ground and space 
telescopes. The launch of JWST and TESS in the next two years 
will strengthen the effort further. JWST, the most powerful 
telescope, as mentioned here before, will be taking spectra of 
transiting exoplanets, while TESS will be searching for nearby 
Earth-like planets, providing great targets for JWST.
    In the next decade, the highest decadal priority, WFIRST, 
will inaugurate space-based direct imaging and reflected light 
and pave the way to a future flagship mission that might image 
Earth-like planets.
    The AAAC finds the U.S. investment in astronomy and 
astrophysics continues to support an outstanding portfolio of 
preeminent research facilities and the coordination between 
NSF, NASA, and DOE has been exemplary. These discoveries have 
captivated the public and inspired new generations of 
scientists and engineers to continue to expand our knowledge 
and secure our future leadership in science, technology, and 
space.
    However, the AAAC is concerned about the balance of the 
portfolio. At both NSF and NASA, competed grants and midscale 
programs are being squeezed by flat or declining budgets. These 
programs form the new generation of scientists and ideas. 
Success rates have declined in the last decade from 30 percent 
to 20 percent, and this is affecting the morale of the 
community. As we plan for a future with the U.S. leadership, 
investment in the next generation of scientists and ideas is 
crucial.
    I was born in the United States because my father came here 
to do his Ph.D. before returning to Brazil. Twenty years later, 
I dreamed of doing the same thing. I applied to U.S. graduate 
schools in spite of being bed-bound. I was very lucky because I 
have my health back and also the opportunity given to my 
generation by those who built the great U.S. research 
institutions in the past.
    Since then, I have mentored many students at Chicago who 
are now following their dreams in academia, national labs, and 
industry. Of my graduate students, 73 percent have been women, 
including the first African-American to get a Ph.D. in our 
department. I would like to ensure that the diverse and 
brilliant young talent in this country will also have the great 
opportunities we have.
    My one message today is to strengthen the base program that 
needs help after the past years of constrained budgets. Let's 
support the next generation as past generations have supported 
us. Thank you for listening. I'll be pleased to answer any 
questions.
    [The prepared statement of Dr. Olinto follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. [Speaking foreign language.]
    Dr. Olinto. [Speaking foreign language.]
    Chairman Babin. Thank you for that.
    I now recognize Dr. Wright for five minutes to present her 
testimony.

                TESTIMONY OF DR. SHELLY WRIGHT,

                      ASSISTANT PROFESSOR,

                   UNIVERSITY OF CALIFORNIA,

               SAN DIEGO, CENTER FOR ASTROPHYSICS

                      AND SPACE SCIENCES,

             BREAKTHROUGH LISTEN ADVISORY COMMITTEE

    Dr. Wright. Thank you, Chairman, and esteemed Committee. 
Thank you for the opportunity to discuss the scientific pursuit 
for finding other intelligent life in the universe.
    I'm an assistant professor in physics at the University of 
California San Diego. I spend my time teaching astrophysics, 
researching galaxies, and building new instruments for the 
world's largest telescopes. I am also one of a few SETI 
researchers worldwide.
    The search for extraterrestrial intelligence, SETI, is a 
scientific pursuit of detecting technological transmissions 
from other intelligent life in the universe. In particular, 
SETI searches for a signal purposely sent or accidentally 
leaked from an advanced civilization.
    We are in the midst of a dramatic paradigm shift. Only in 
the last few years, thanks to NASA's successful Kepler mission, 
we know that one in every five sun-like stars in our galaxy 
harbors an Earth-like planet. This greatly encourages our 
search for life and intelligent life elsewhere in the universe, 
but given the lack of sustained academic funds for SETI, few 
opportunities exist for researchers and students to engage in 
this field. Yet many believe there is no single discovery that 
will more fundamentally change humankind's view of our place in 
the universe than to discover E.T.
    Since the search in 1960, SETI is predominantly conducted 
at radio wavelengths. Numerous SETI programs have made use of 
the largest U.S. and international radio telescopes. Still, 
SETI radio searches have barely scratched the surface for 
detecting faint interstellar signals. Thanks to constantly 
improving technology, the coming years still promise new, more 
sensitive SETI searches.
    Breakthrough Listen, a ten-year, $100 million SETI 
initiative sparked by philanthropist Yuri Milner began 
operations just this year in January. Breakthrough Listen is 
using the Green Bank Telescope in West Virginia, the Parkes 
radio telescope in Australia to attempt a radio search that is 
50 times more sensitive and covers 10 times more sky than all 
previous SETI searches before.
    Just this month, the Chinese have finished final assembly 
of the world's largest radio dish at 500 meters in diameter. 
Chinese scientists have slated this dish to be used for very 
sensitive SETI program, thus adding significant international 
competition to the SETI field.
    The radio regime is just one small portion of the 
electromagnetic spectrum. It has been suggested for decades 
that other wavelengths may be just as viable for interstellar 
communication. The discovery of laser technology opened a new 
realm and offered several advantages over radio. Lasers can be 
narrowly beamed, thus transmitting power efficiently, and its 
beam can be packed with more information per energy used.
    Using our laser technology today, humans would have the 
capability to transmit a signal that would be easily detectable 
thousands of light-years from Earth encompassing millions and 
millions of stars. Our group has constructed SETI instruments 
at Lick and Leuschner Observatories to search for fast-pulsed 
optical laser signals that have a burst within nanoseconds or 
shorter period. In parallel, team from Berkeley searches for 
continuous laser signals using high-resolution spectra from 
Keck Observatory.
    Breakthrough Listen also supports an optical SETI program 
that seeks laser signals and optical spectra at Lick 
Observatory, but another promising area for SETI is infrared 
wavelengths. Infrared detectors have been rapidly improving 
only recently making an infrared pulse laser SETI search 
possible. In fact, sending a laser signal in infrared is more 
advantageous because it's less diminished by interstellar dust 
and gas.
    Our team designed and constructed the first-ever near 
infrared SETI experiment. This program has been superb for 
training undergraduate and graduate students and postdocs. Our 
team and others are now working to design and seek funding for 
new SETI experiments.
    Enthusiasm is ever-increasing for SETI but resources are 
scarce. A huge disparity exists between the enormous public and 
scientific interest and whether we are unique in the universe 
and resources that are actually allocated to SETI research. 
Since 1977, there has been roughly a flat rate of refereed 
publications about SETI with a number of worldwide dedicated 
SETI research levels at a mere two dozen. Even with the much-
needed catalyst of funds recently provided by private 
foundations, leveraging private and public sectors is vital for 
creating a sustainable and growing community of SETI 
researchers.
    Two decades ago, unknowns about astrobiology and extrasolar 
planets discouraged government funding for SETI. Today, thanks 
to successful NASA, NSF, and national supported missions, 
former concerns about the value SETI research no longer apply. 
While there's much to learn about the universe, the relevance 
for advancing SETI is stronger today than ever before in the 
history of humankind, so thank you for your consideration and 
listening today.
    [The prepared statement of Dr. Wright follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Dr. Wright.
    I now recognize Dr. Jones for five minutes to present her 
testimony.

               TESTIMONY OF DR. CHRISTINE JONES,

                     SENIOR ASTROPHYSICIST,

             SMITHSONIAN ASTROPHYSICAL OBSERVATORY,

            PRESIDENT, AMERICAN ASTRONOMICAL SOCIETY

    Dr. Jones. So Chairman Babin, Chairman Smith, Ranking 
Member Edwards, and Members of the Subcommittee, thank you for 
the opportunity to testify today on behalf of the American 
Astronomical Society, the professional society of our 
discipline in the United States.
    We're very fortunate in the United States to have a robust 
fleet of space- and ground-based observatories that allow us to 
make exciting new discoveries about our universe. Congress has 
long been a strong supporter of these programs at NASA and NSF, 
and for that our community is extremely grateful.
    I hope to give you just a snapshot of the exciting 
research, technology development, and education and outreach 
activities that astronomers engage in. As you know from these 
other testimonies, not very long ago the only planets we knew 
about were in our solar system. Dark energy had not been 
discovered and supermassive black holes were not known to be 
common in the centers of galaxies. A lot's changed since then 
thanks to significant public and private support.
    Today, we discovered almost 3,000 exoplanets have another 
2,500 candidates. NASA's Kepler mission found an exoplanet 
orbiting two suns, colloquially known as Tatooine after the 
double star system in Star Wars. Just last week, a U.S.-led 
team using the European ground-based telescope announced the 
discovery of an exoplanet with three stars, one better than 
Tatooine.
    Thanks to ground- and space-based observations, we now know 
that normal matter, the sort of stuff we deal with directly 
every day, makes up only a small fraction of the mass in the 
universe. The rest of the mass is dark matter or dark energy, 
which isn't even matter at all but it is driving the 
accelerating expansion of the universe.
    Although as President of the AAS, I speak on behalf of all 
the astronomical scientists. I'm also an active researcher. My 
research focuses on the effect supermassive black holes have on 
their host galaxies. These black holes have occasional very 
large outbursts that prevent new stars from forming in their 
galaxy. It's amazing to think that something so relatively 
small in size has an impact across the galaxy many tens of 
thousands of light years in size.
    This research has more than pure academic value. The 
technology that we developed to explore the universe transfers 
beyond our field. I want to mention just two examples. Much of 
the time, as you've heard, when astronomers want to study 
objects, they're very, very faint. They can be distant 
galaxies. They can be very faint objects in our own solar 
system. To study such faint astronomical objects, we need both 
large telescopes and very sensitive instruments. Although the 
first CCDs were made for data storage devices, astronomers 
recognized that they could be modified to function as core 
components of highly sensitive, efficient, and stable imaging 
devices.
    Astronomers, working with industry and the government, 
helped improve CCD detectors so they're part of the workhorse 
of instruments on ground and space-based telescopes. Variations 
of that technology transferred beyond astronomy and are now the 
crucial components of innumerable digital imaging systems, 
including the camera that you probably have in all of your cell 
phones.
    And technology originally developed for observing x-ray 
sources in space is also used for security screening. The 
company American Science and Engineering where Nobel Prize-
winning astronomer Riccardo Giacconi worked also developed and 
built the first x-ray scanners. The next time you put your bag 
through the Smithsonian's Air and Space Museum's scanner, take 
a moment to look at the AS&E label that's on the side.
    But perhaps the most important technology transfer of all 
is the technically trained people. Astronomy is really a 
gateway science that brings people into STEM fields, and 
astronomers love sharing what we do with the public. 
Undergraduate Astro 101 courses enroll approximately 250,000 
students each year nationwide and are taken by about ten 
percent of all college students, making it one of the most 
popular general education courses.
    NASA and NSF have very active and successful education and 
outreach programs. This includes the Hubble program that brings 
formal science education to students in half of the public 
middle schools in the United States. Programs at NSF like the 
research experiences for undergraduates play an important role 
getting undergraduates from diverse backgrounds exposed to 
doing forefront research.
    But even with these programs, most scientific fields 
including ours have a long way to go on the path toward being 
fully inclusive of underrepresented minorities. There are no 
easy answers or quick fixes, but our community is committed to 
doing better with the help of our colleagues at NSF and NASA.
    In closing, the mission of the AAS is to enhance and share 
humanity's scientific understanding of the universe, where it 
came from, and where it's going. It's a challenging mission, 
and what we do resonates with the American people. Discoveries 
grace the front pages of major newspapers and people filled 
Times Square to watch Curiosity land on Mars. The public wants 
us to uncover more of the mysteries of the universe and to 
share those results with them. That is what astronomers do, and 
it is what funding from Congress facilitates.
    It's a delight to participate in this effort as a 
researcher, an honor to serve as the President of the AAS, and 
I look forward to answering your questions here today and in 
the future.
    Oh, and I couldn't help but notice that there are seven 
members of the Full Committee from Texas, including Chairman 
Smith and Ranking Member Johnson, who's not here right now, and 
it turns out that 2017 is the year of Texas for the AAS. Please 
accept my personal invitation for you or members of your staff 
to attend the society's conferences next year. In January we'll 
be in Grapevine and in June we'll be in Austin. Thank you very 
much.
    [The prepared statement of Dr. Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much, Dr. Jones, and I hope 
that my scheduler will take note of that. And I'd love to be 
there.
    Anyway, we certainly thank all of the witnesses for your 
testimony. And now the Chair recognizes himself for five 
minutes.
    The JWST thermal vacuum testing will be conducted at the 
Johnson Space Center's Chamber A, which is the largest high 
vacuum cryogenic optical test chamber in the world. Chamber A 
was famously used for Apollo testing.
    And, Dr. Hertz, if you can speak to how this unique 
facility supports astronomy and astrophysics missions.
    Dr. Hertz. Thank you, Mr. Chair, for that question. One of 
the lessons that NASA has learned over the years of launching 
many successful space missions is that a thorough testing on 
the ground is the key to making sure they work the first time 
we turn them on in space unlike ground-based observatories. We 
can't send our technicians in to fix them if that turns out to 
be--if we don't get them working right.
    Chamber A is the only place in the country where we could 
do a full end-to-end test of the James Webb Space Telescope. 
The Webb telescope is being assembled right now at the Goddard 
Space Flight Center, and early next year we will be shipping it 
down to Houston to put it into Chamber A where we will spend a 
good fraction of the year doing the end-to-end test with the 
flight telescope and all four flight instruments inside the 
chamber to make sure they work as a complete system.
    Chairman Babin. Thank you very, very much. And we're 
looking forward to observing some of these tests.
    My next question is for Dr. Olinto. One of the reasons the 
Hubble Space Telescope is so successful is that it can be 
serviced by the space shuttle. How could a deep space 
exploration vehicle like Orion impact future astronomy and 
astrophysics missions? And how would future astronomy and 
astrophysics missions benefit from being capable of crew 
servicing if they are reasonably within reach of the SLS and 
Orion?
    Dr. Olinto. Just repeating what Paul just said, it is 
really important to make sure it works perfectly before you 
launch----
    Chairman Babin. Right.
    Dr. Olinto. --because it's obviously a very difficult thing 
to do. We are very proud that the Hubble was serviced and it is 
so capable of doing gorgeous things, including my scarf. But 
going to, for example, L2 to service JWST would be a much 
harder job just, you know, it's much further away. So I think 
this is a challenge that I'm sure that if we are willing to 
spend a lot of money on it, we should be able to do it.
    But in terms of priorities I think the best is to make sure 
it's really working on the ground. So servicing things far away 
is really challenging. On the other hand, we need to keep this 
capabilities developing for future missions which might become 
more affordable to go service something in L2, for example. So 
I imagine that for very far away robotics would be the way to 
go first so that we make sure our astronauts come back healthy.
    Chairman Babin. Okay. Thank you. Absolutely.
    Now, a question to really everyone concerning the SLS. How 
will the capabilities of the Space Launch System impact future 
astronomy and astrophysics missions? Some of it's been 
addressed already. And how should the next decadal survey 
account for these capabilities? Who would like to address that 
first?
    Dr. Hertz. I'll start off, Mr. Chair. The SLS offers a 
number of capabilities that could be used by future space-based 
observatories. Primarily, it's the large mass that's capable of 
launching into space and the large faring that will have 
compared to some of the current generation of launch vehicles.
    As many of the witnesses have testified, the frontiers of 
astrophysics require us to image things which are very far away 
and very faint, that means very large mirrors in order to 
collect enough light for us to make scientific deductions about 
what we're looking at. Large mirrors are both large and heavy, 
and the SLS can help us solve both of those questions.
    As I mentioned, we have ongoing right now four studies of 
potential future NASA missions to will help inform the next 
decadal survey, and so all those studies will lay out what are 
the requirements for those future observatories. And if those 
requirements can be best met by an SLS instead of some other 
launch vehicle, that is certainly one of the tools that would 
be available for realizing a future observatory.
    Chairman Babin. Okay. Thank you. Anybody else want to take 
an answer to that?
    Dr. Olinto. Just echo that large mirrors are definitely a 
must for us, the larger the better.
    Chairman Babin. Okay. Well, that completes my line of 
questioning and thank you very much.
    And now I would like to recognize the gentlewoman from 
Maryland for her questions.
    Ms. Edwards. Thank you very much, Mr. Chairman. And thank 
you so much to the witnesses for your testimony. You just make 
me so excited just to be here. And I don't do astronomy but I'm 
one of those kids that went to the planetarium and laid down on 
the beach at night looking up at the--at stars in the sky and 
wondering what was out there. And so thanks for your testimony 
today, inspiring new generations.
    I was recalling with our staff here--we were going back and 
forth that both the Hubble Space Telescope and Kepler both at 
various times in their development and operation were on the 
chopping blocks here in the Congress. There was a time when the 
Hubble was the butt of late-night jokes every night on 
nighttime television. And Kepler was once described as being, 
you know, raised from the dead or something because it was 
under threat. So I can't even imagine what our world and your 
world as professionals would be if we didn't have, you know, at 
least those instruments in developing and building on them for 
the future generations.
    And so I wonder if you could comment about the role of the 
decadal survey in terms of informing what it is that we do and 
how--and the importance of staying true to it even in the face 
of challenges because we know that each of these programs is 
very, very complicated and they will face significant 
challenges. And it's sometimes tough for us on this side to 
really understand that we've just got to weather those 
challenges. So I'll just--that's like a freebie, anybody wants 
to take it.
    Dr. Olinto. I can go first because I am very proud of that 
process, so much so that my project in the last decadal survey 
was ranked number four on one panel and didn't make it to the 
end. So I got to be chopped, and I still think this is the 
right process. So, you know, I think we need to always 
prioritize based on the available resources and also the 
available technology to be able to be always successful. So we 
don't want to waste anybody's money, no taxpayer's money.
    And this is a huge effort within the community. We spent a 
lot of time trying to tell our colleagues, and I think the 
format that we set up, which is really, you know, merit-based 
and having our reviews by colleagues of what we are proposing, 
a really good way to sort out the priorities--the top 
priorities for large programs. And some of us that don't get to 
get their project in have to be conscientious that that was the 
right process. And I think we have had great success exactly 
for that because if we weren't following that, we would be in a 
much harder situation. So I think it's a brilliant process.
    Dr. Hertz. I'm pleased to--well, first of all, 
Representative Edwards, I want to say that I bet every single 
one of us were kids who laid on the beach and looked up and 
observed the night sky and were excited by it.
    I'm pleased to say that at NASA in astrophysics all of our 
missions--our mission decisions are driven by the 
recommendations and priorities of the decadal survey. Our large 
missions are those missions which are prioritized to be done 
first in the most recent decadal survey, and our smaller 
missions are selected through open competitions, which was also 
a recommendation of the decadal survey.
    And so, you know, by following the decadal survey, we are 
assured that we are realizing the highest priorities of the 
science community and addressing the broadest possible range of 
science.
    Ms. Edwards. Thank you. And can you add to that, you know 
what is the--and, Dr. Ulvestad, if you would comment, what's 
the challenge of, you know, trying to figure out not just what 
the priorities are but trying to project what some of the 
challenges might be so that we get closer on the money front 
because I think that's where we get held up.
    And then--and add to that, what is--what are the threats to 
U.S. leadership if we don't engage in a process right now?
    Dr. Ulvestad. So first, I'll say that we, too, subscribe 
very rigorously to the decadal survey in setting priorities for 
ourselves. And one of the challenges we face is we--as you 
alluded to is that the decadal survey committee has to make 
assumptions about what future budgets are going to be, going 
out 5, 10, 15 years. And so they gave us a--they give us a 
program, a set of priorities based on some projection.
    And as you may know, the decadal survey came out in 2010 
right about the time that there were difficulties in the 
banking community and so on. And so we haven't realized the 
budgets that were recommended or that were sort of believed by 
the decadal survey. So a really important part of the decadal 
survey is that they not give us a laundry list but that they 
give us priorities, and that way we're able to adjust to 
circumstances that are not exactly what they assumed.
    So decadal surveys should always be aspirational. They 
should always reach for the stars that we all laid and looked 
at. And we won't be able to do everything they recommend, but 
by them recommending a compelling program and by them doing a 
good job of prioritization, that really is one of the best ways 
that we can react to budget circumstances that are inevitably 
different from what they assumed.
    Ms. Edwards. My time's up. Thanks, Mr. Chairman.
    Chairman Babin. Thank you. I'd like to now recognize the 
Chairman of the Full Committee, the gentleman from Texas, 
Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman. Let me direct my 
first question to Dr. Hertz and Dr. Wright. And it seems to me 
that one of the most promising fields of discovery right now 
may be detecting optical transmissions from other worlds. And I 
was going to ask each of you if you could give us an update on 
what's going on in that field and what our hopes are. And, Dr. 
Hertz, if you'd like to go first.
    Dr. Hertz. Well, I'm going to defer to Dr. Wright.
    Chairman Smith. Okay.
    Dr. Hertz. This is not an area that NASA is currently 
pursuing, and I don't consider myself an expert at all in this 
area.
    Chairman Smith. Okay. Well, one, I regret NASA's not 
pursuing, but, Dr. Wright?
    Dr. Wright. I spoke a little bit about the programs on the 
optical SETI and the infrared study front. Radios had, you 
know, 50 years to get a stronghold in the SETI community----
    Chairman Smith. Right.
    Dr. Wright. --while I would say the optical SETI community 
or laser SETI in particular is still in its infancy. We're 
still trying to make use of the technology that's on hand. 
There are many things that we can do and there are many 
scientists that are interested in doing data mining on all the 
astronomical data sets that are already there from the very 
large array to the Arecibo to Hubble Space Telescope, even 
Kepler, and that involves getting software engineers involved, 
other astronomers to think creatively about how they can 
actually go in there and data mine unusual signals. And so one 
promising area where people want to move to is look at existing 
data sets and try to see if we can get optical transmissions.
    Our team and others are designing a new all-sky/all-time 
optical SETI and infrared Wide Field Infrared SETI experiment 
which we're seeking funds to, and we have a meeting coming up 
in August to go talk about the next phases for this.
    Chairman Smith. Okay. Thank you, Dr. Wright. And, Dr. 
Ulvestad?
    Dr. Ulvestad. So I just wanted to mention we talked about 
the Large Synoptic Survey Telescope earlier.
    Chairman Smith. Yes.
    Dr. Ulvestad. That telescope will see of the order of 10 
million transient sources per night. That is a source that 
isn't there in a catalog but is brighter or fainter or wasn't 
there at all. And I think given the power requirements of 
lasers, people aren't going to be pointing their lasers to us 
all the time, so when that telescope comes up, I think its 
ability to survey large parts of the sky rapidly and compare 
them to the existing data sets will be very powerful, but it 
will require the kind of data mining that Dr. Wright just 
referred to understand what might in fact be a laser-related 
signal.
    Chairman Smith. Okay. My next question was for you, Dr. 
Ulvestad, and that is what discoveries do we expect in, say, 
the next five to ten years when it comes to exoplanets?
    Dr. Ulvestad. So there's a couple things that I expect we 
will see over the next few years. I mean, discoveries by their 
very nature are not easily predictable, but we build 
capabilities and we can sort of understand what kinds of 
discoveries those capabilities can be sensitive to. So one is 
with our partners at NASA we're working on this very high-
resolution spectrograph that will go on a telescope in Arizona 
and be able to measure masses of planets similar to Earth, so I 
expect we will get specific mass measurements of some more 
Earth-like planets from that over the next five to 10 years.
    A second is with our Gemini Observatory we have an 
instrument called the Gemini Planet Imager, which enables us to 
image planets like Jupiter in Jupiter-like orbits around stars 
and actually to get low-resolution spectroscopy at the same 
time. So I think we'll be learning more about the atmospheres 
of some of the extrasolar planets. And those observations will 
drive theoretical understanding of formation and evolution of 
planetary systems.
    Chairman Smith. Okay. Thank you.
    And, Dr. Olinto, is there sufficient coordination between 
NASA and the National Science Foundation when it comes to 
astrobiology?
    Dr. Olinto. I think the answer is yes. And I was at the 
AAAC as a member in 2003 to 2006, and at that time I don't 
think the two gentlemen next to me, the equivalents, would have 
each other's cell phones and before the testimony today were 
joking that they could exchange and give each other's 
testimonies. So I think the coordination has been really 
wonderful.
    One of the things we are looking into in terms of the 
coordination is near-Earth objects because LSST has the 
capability, per the decadal survey recommendations, to search 
for near-Earth objects, which is a mandate for NASA to 
implement.
    Chairman Smith. Okay.
    Dr. Olinto. So these things will need to be coordinated, 
too, so we're looking forward to that upcoming coordination 
between the two.
    Chairman Smith. Good enough. Thank you.
    And, Dr. Jones, thank you for the invitation to the 
conference. Since I represent part of Austin, I will be there 
next June.
    Dr. Jones. Thank you. We will welcome you.
    Chairman Smith. Thank you. I yield back, Mr. Chairman.
    Chairman Babin. Thank you, Mr. Chairman.
    I now recognize the gentlewoman from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all the witnesses. We really appreciate your expertise.
    I want to ask you a little bit about international 
cooperation, which is something that we discuss a lot in this 
Committee. Dr. Hertz, I understand that NASA was not able to 
lead the large-scale x-ray and gravitational wave missions 
recommended by the decadal survey. What is the status of the 
NASA partnership with the European Space Agency on the ATHENA 
and L3 missions which will address those areas? And I wonder if 
you could talk a little bit about how important it is for the 
United States to be involved in those missions.
    And also I want to bring in Dr. Wright because you 
mentioned something about the FAST telescope in the SETI work. 
And can you talk about the potential for collaboration? While 
we still need to of course maintain our U.S. leadership, are 
there some areas where we're competing rather than 
collaborating? Dr. Hertz?
    Dr. Hertz. Thank you. That's a great question. I'd love to 
speak on that topic. Pretty--probably 80 percent of all of 
NASA's astrophysics missions are international partnerships, 
which is most--virtually all of them, and all of our future 
large missions are envisioned to be partnerships with our 
international partners.
    In order to make the kind of breakthrough discoveries that 
we look forward to in the future requires large and therefore 
expensive observatories in space, and we're beyond the place 
where the different space agencies want to put up competing and 
similar observatories. So we are constantly coordinating with 
each other on what our future plans are and looking 
opportunities to partner.
    The James Webb Space Telescope is a partnership between the 
United States, the European Space Agency and the Canadian Space 
Agency. We are in discussions with a number of space agencies 
about partnerships on the WFIRST Observatory for the 2020s. And 
we have talked to the European Space Agency about partnering on 
their next two large astrophysics observatories, the ones that 
you mentioned, the ATHENA x-ray observatory, and we have a very 
mature understanding of what NASA is likely to contribute to 
that observatory as it goes through the European process of 
being approved.
    And then in--further out in the future the Europeans have 
made a decision to lead a space-based gravitational wave 
observatory, which is a high priority of both of our 
communities. We have expressed a strong interest in partnering 
in that. We are under--we are engaged in discussions about what 
our role might be and for--and we have been for the last number 
of years investing in technology development here in the United 
States to make sure that we have developed unique technologies 
that we can bring to such a partnership and make a U.S. 
involvement in such an observatory a win-win for both partners.
    Ms. Bonamici. Terrific. Thank you.
    Dr. Wright, on the SETI work is there room for progress on 
that?
    Dr. Wright. Yes, I'll just--I'll comment on the FAST 
telescope in China. There is a collaboration going on with 
Berkeley right now to help with the receiver. So as I said, the 
dish is already made but they have to work on the electronics 
and the antenna to actually detect it.
    There is--the frequencies for which they cover it are 
slightly different than Arecibo, so there's some--there's 
competition on particular frequencies but on others there are 
not. And it's not clear to me yet or I don't think I could 
comment on whether the Chinese scientists want to collaborate 
with the SETI work and how we would work together within it.
    I'll also add just one statement that the group--a group in 
Italy has been trying to push on optical SETI and trying to 
collaborate with us and get our understanding of the technology 
there as well.
    Ms. Bonamici. Terrific. And, Dr. Jones, I want to ask you, 
in your prepared statement you note the importance of making 
observations publicly available no more than a year after 
they're obtained, so can you elaborate a bit on why that's so 
important to advancing the science, and perhaps following up on 
Ms. Edwards' questions about how we talk with our constituents 
and the public about why it's important to invest in astronomy 
and astrophysics and science especially with, you know, long-
term planning that's so needed might--making observations 
publicly available help in communicating the value of your work 
with the public?
    Dr. Jones. Sure. I mean, the archives are tremendously 
important not just to astronomers but to anybody who wants to 
look at the observations. There are large archives of the 
Hubble, of the Chandra, of all of the major missions, as well 
as the ground-based missions. NOAO has archives of the 40 
telescopes I think we're--which are archived since 2004 and 
NRAO also has large archives of the radio observations.
    Ms. Bonamici. Just in the remaining time, are there some 
examples of where observations conducted with federal funding 
are not made publicly accessible and available?
    Dr. Jones. No, I think they're all made accessible on a 
timescale no longer than a year. Some are made sooner, but it's 
a tremendous research. So much of what, you know, people have 
discovered they've discovered from the archives not because 
they were looking to propose to do something but they find it 
in the archives. And that's----
    Ms. Bonamici. Terrific. And I see my time is expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Babin. Thank you. I now recognize the gentleman 
from Oklahoma, Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. And, Dr. Wright, when 
the general public focuses on SETI we live in a time where it 
wants immediate gratification, things happening right now, but 
in some ways isn't this kind of like a junior high dance? We've 
been making noise on this planet now for--since Mr. Marconi--a 
century probably? So the noise wave is, what, 80, 90, 100 
light-years out? If you're past that point, then there's no 
indication that we're here to the rest of the universe. Fair 
statement? Therefore, part of the challenge of finding 
something----
    Dr. Wright. Well, so----
    Mr. Lucas. --is someone looking for us, too?
    Dr. Wright. One of the interests for NASA mission and NSF 
missions are for extrasolar planet atmospheres. So there are 
other means to detect whether there are biosignatures in the 
atmosphere to know whether there's life there. So they may know 
we're here, whether they're beyond listening to I love Lucy 90 
light-years out.
    But we're just still in our technological infancy, right? 
This is----
    Mr. Lucas. Exactly the point I was trying to make.
    Dr. Wright. So the standpoint for SETI is that hopefully we 
maintain our technology and civilizations much longer, and they 
would be advanced thousands or hundreds or hundreds of 
thousands of years longer than us so they would have other 
means for this.
    Mr. Lucas. Along that line, that means that we have to 
maintain our basic investments in not just technology but 
people. But, Dr. Wright, to you and Dr. Olinto, discuss for a 
moment the nature of the astrophysics research programs in 
American universities. How many are there? How do we compare to 
10 or 20 years ago? What kind of facilities do they have to 
work with, that next-generation who will come after all of us 
in this room? Where are we in this country right now?
    Dr. Wright. I think we're doing quite well. I think that 
there's been no greater interest now than for astronomy and 
astrophysics. The facilities we have, we have many ground-based 
observatories that we use through universities, small-based 
facilities that have been excellent for trying to test 
innovative new instrumentation on, which is very important 
before we bring them to larger ground-based telescopes or we 
give them to NASA to put on space-based telescopes.
    There's heavy student involvement. In fact, the enrollment 
is even higher for astrophysics bachelor's degrees. Those 
programs have spread through academia. And there's a greater 
interest within Ph.D., which I think has already been commented 
by the panel. A Ph.D. in astrophysics is a great springboard to 
any of the STEM fields.
    Mr. Lucas. Dr. Olinto?
    Dr. Olinto. Thank you for that question. I agree it's 
really wonderful times, and the number of students and interest 
is just growing. But as I mentioned in my statement, one of the 
challenges of flat budgets is that the facilities which we 
really love to build and want to use do keep growing because, 
you know, they have to be constructed, operated, there's 
inflation. So it's much harder to protect the grants program 
and the midscale program, which is where the new ideas and the 
new people get formed.
    So this is the big challenge right now in trying to make 
sure that the future will be as wonderful as the present is to 
really find a way find a way to protect this most flexible part 
of budgets, which is the individual grants program.
    And I was just visiting her institution, and on the board 
there is the plot that we wrote in the AAAC with the proposal 
pressure going high, the pressure is so much higher that much 
fewer grants are being able to be funded.
    So I think this is the challenge we are facing now that we 
should keep an eye on that because it obviously doesn't come in 
as a flagship mission. It's always sort of the small programs, 
but those are really where the new blood comes in. So----
    Mr. Lucas. But you're confident the blood exists----
    Dr. Olinto. Oh, definitely.
    Mr. Lucas. --if the resource is available----
    Dr. Olinto. Yes.
    Mr. Lucas. --there for them to do their work?
    Dr. Olinto. Exactly.
    Mr. Lucas. It does exist?
    Dr. Olinto. Yes.
    Mr. Lucas. Dr. Hertz, you mentioned the nine Earth-like 
planets so far. What's the range in light-years away closest to 
farthest, just rough numbers?
    Dr. Hertz. Yes, I certainly don't know that off the top of 
my head. I'd be glad to take that question for the record and 
get back to you.
    Mr. Lucas. That's a fair response. Thank you.
    I yield back, Mr. Chairman.
    Chairman Babin. Thank you very much.
    Now, I'd like to recognize the gentleman from New York, Mr. 
Tonko.
    Mr. Tonko. Thank you, Mr. Chair, and welcome to our 
panelists. Can--and this is a question for any of you. Can you 
characterize the current representation of women and minorities 
within the astronomy and astrophysics communities?
    Dr. Jones. I can start with that. The numbers are growing 
but the numbers are still very small. Having three of us here 
does not represent that there are a large number of women in 
astronomy, but the numbers are growing. The number of 
underrepresented minorities is not as large.
    We've had an REU program at Smithsonian for the last 20-
something years. I've been PI of that. We take 10 students each 
year. This last year we had 300 applications. We've always had 
at least half of them are women, and we have a few--not as many 
as we'd like--of underrepresented minorities, but I think those 
NSF programs are tremendously important for bringing in women 
and underrepresented minorities.
    Mr. Tonko. Yes. To any of you--and yes, Dr. Ulvestad--is 
there something that can be done in a targeted way that will 
improve those numbers?
    Dr. Ulvestad. Yes. So in--I'm not an NSF lifer. In my pre-
NSF life I chaired the decadal surveys demographic study group, 
and Dr. Jones was actually a member of it. So I think on the 
gender side we see substantial increases in the number of women 
in the physical sciences and astronomy. I think that the 
numbers, if you look at the undergraduate level in astronomy, 
are approaching 40 to 50 percent. And one of our challenges is 
the--as you get to the higher levels in academia, those numbers 
tend to get smaller. And so a challenge us to us as a society 
is really how to maintain the interest of the people who are 
coming in as undergraduates.
    On the underrepresented minority front, I think the 
physical sciences in general have not done very well. We have 
specific programs in our division, in our materials research 
division in NSF, but I'll point out that NSF-wide NSF has just 
started a new initiative called INCLUDES--and it's a long 
acronym; I don't remember exactly what it stands for--that's 
specifically aimed at underrepresented minorities.
    We recently had our first round of pre-proposals for that 
and got over 600 pre-proposals that will be winnowed down to 
full proposals that will be invited. So I think NSF as an 
institution is trying very hard to sort of get these programs 
going.
    I think that one of the issues for NSF is that we can 
address things at sort of the college and postgraduate level, 
and a lot of the issues relating to representation start much 
earlier in careers.
    Mr. Tonko. Thank you. And the--to Dr. Jones and perhaps Dr. 
Olinto, what's the impact of low proposal success rates on the 
nature of the projects that get funded? In this high-pressure 
environment is there a sufficient support for the more long-
term investigations that don't have a clearly defined result 
within a couple of years?
    Dr. Jones. I--the low proposal rate makes it very hard for 
people. They're just--you know, when only one proposal in 10 
roughly is being accepted I think it's discouraging. The funds 
that usually come in because those proposals are successful are 
usually the ones that support graduate students and postdocs so 
it makes that--you know, you can't support as many of the 
younger people who are coming up. So, you know, it is very--you 
know, it's hard and it's discouraging for members of the 
community.
    You know, in theory the best science, the very top ten 
percent is getting done, but much of the science is really 
excellent and should be supported. So----
    Mr. Tonko. And Dr. Olinto?
    Dr. Olinto. To add to this, it's difficult in many respects 
and especially because it used to be 30 percent and now it's 20 
so the change makes, you know, people propose more because they 
used to get grants. So folks that had support stop having 
support and new folks coming in will then have to fight even 
harder.
    And what happens is you have excellent reviews that don't 
mean funding. So when you write an excellent proposal and you 
get no funding, then you don't know what to do the next year 
because, you know, how can--they can't go better than 
excellent. So if we leave excellent proposes on the chopping 
block, that is a problem.
    If we--you know, we don't have a perfect number, but the--
historically, the 30 percent seemed to have been a very healthy 
way to keep excellent and very good science and, you know--
because when you're squeezing the excellent out, you're also 
squeezing the risk, right, because we know that those three 
will probably be okay. This one which takes a little more risk 
will not. You know, we probably don't fund that because we 
don't know. And that's not how science should be done, right? 
We should really gain from a little bit of high-risk 
investment, obviously not all of it of the portfolio. So it's 
very difficult right now because of the decrease. So anyway--
yes.
    Mr. Tonko. Well, my time is expired. Let me thank you all 
for participating today.
    And with that, Mr. Chair, I yield back.
    Chairman Babin. Thank you. I now recognize the gentleman 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you to our panelists today. It's been very thought-
provoking.
    I've always supported astronomy. I've been here 28 years, 
and I buy on and I bought on to the idea that astronomy helps 
us with a basic understanding of the universe not just out 
there but down here as well and expands our fundamental 
knowledge base, which are two very laudatory goals.
    But number one, doing this is an expensive proposition and 
it's an expensive proposition that benefits all of mankind, not 
just Americans. And so I was heartened to hear the efforts that 
are being made on international cooperation, and I think that 
that should be expanded.
    I didn't hear any cooperation with Russia. Is our current 
relations with Russia, which are very dicey right now--is that 
preventing us from having the type of cooperation in this area 
that could be beneficial to both our countries?
    Dr. Hertz. Thank you for the question. No, I don't think 
so. I mean, Russia is a very strong partner on the 
International Space Station with NASA, and we're very pleased 
to have their partnership on that project.
    Mr. Rohrabacher. Okay. Well, that's the answer. Thank you. 
I'm glad to hear that. I think sometimes we need to--when we 
have adversaries, we need to find ways of cooperating that can 
actually lessen the tension between people who have different 
points of view and countries that have different points of 
view.
    One of the underappreciated services provided by astronomy 
and by this area of science that we're talking about is an 
early warning system that could alert us to objects coming from 
space that could cause enormous damage of if not the ultimate 
damage to the Earth. And that is something that is an immediate 
payback. Rather than just expanding knowledge, we're actually 
getting a warning that could be utilized--which we have not yet 
put the system in place--to deflect an object that might be 
coming from space.
    One of the prerequisites in order to set something like 
this up, which has been a long project of mine, one of the 
assets that we would have is the Arecibo telescope. And Dr. 
Ulvestad, there's been some statements that you've made that 
indicate that Arecibo, we were in the initial steps of 
mothballing it. Do we have other assets that can spot an object 
that far out and actually chart its course so that if ten years 
out there's an object there that would be hitting the Earth--I 
understand Arecibo provides that service. Do we have other ways 
of providing that service intact now?
    Dr. Ulvestad. So, first, I'll say we haven't made any 
decisions about what the future of Arecibo is. We're studying a 
variety of options. But in terms of detecting objects far out, 
what you really need for that is a survey telescope with a very 
wide field of view, which Arecibo is not. So Arecibo's radar 
can be used to characterize the properties of an object, say an 
asteroid that is already known about that you can point out.
    In terms of the NSF investment, the LSST, which can survey 
the sky and as we said would detect----
    Mr. Rohrabacher. Is that already in place?
    Dr. Ulvestad. No, that's being built. That will be----
    Mr. Rohrabacher. That's not in place so we don't have 
something in place that would--if we mothball Arecibo this year 
that would be immediately taking over that particular threat 
and handling that?
    Dr. Ulvestad. Well, Arecibo, as I said, is not a survey 
telescope so it can only do radar characterization of asteroids 
that----
    Mr. Rohrabacher. But also----
    Dr. Ulvestad. --are already known about. So----
    Mr. Rohrabacher. Radar calculations, by the way, of where 
it would actually threaten the Earth?
    Dr. Ulvestad. No, what they actually do is they do radar 
assessments of what the composition of the object is because if 
it's like a rubble pile versus a solid iron mass, that will 
have a very different impact.
    Mr. Rohrabacher. The Arecibo telescope is not involved with 
charting the actual potential of an object to hit the Earth?
    Dr. Ulvestad. It's involved with tracking.
    Mr. Rohrabacher. Yes.
    Dr. Ulvestad. It can also be done with optical and infrared 
telescopes.
    Mr. Rohrabacher. It could be done?
    Dr. Ulvestad. Yes and is done.
    Mr. Rohrabacher. Is being done?
    Dr. Ulvestad. Yes.
    Mr. Rohrabacher. So your testimony today is that Arecibo is 
not providing at this time a service that is not being provided 
by someone else?
    Dr. Ulvestad. So as I mentioned, the radar characterization 
is unique to Arecibo, the characterization of the properties of 
an asteroid.
    Mr. Rohrabacher. Right.
    Dr. Ulvestad. Now, NASA also has a radar at Goldstone, but 
that's a smaller dish so the distance is not as far.
    Mr. Rohrabacher. Right. So being able to determine, as you 
say, what the composition is is not something that tells us 
whether or not that is a threat to the Earth?
    Dr. Ulvestad. It tells us something about whether it's a 
threat to the Earth. I think that it doesn't tell us uniquely 
about its path.
    Mr. Rohrabacher. Okay. Well, Dr. Hertz, could you give us 
your answers to that?
    Dr. Hertz. I certainly agree with everything Dr. Ulvestad 
said. He mentioned the Goldstone radar that's part of our deep 
space network. It's also used for radar characterization of 
asteroids. And unlike Arecibo, it can be pointed. Of course 
Arecibo cannot be moved sitting in a valley the way it does.
    Mr. Rohrabacher. And, Dr. Olinto, do you agree with----
    Dr. Olinto. Yes. I think there are many survey telescopes 
that are working now, Pan-STARRS, Dark Energy Survey, other 
survey telescopes of the type that LSST will be another huge 
next-generation improvement on what we already have. So there 
is a menu of things that one can do, but LSST will certainly 
add a huge amount to this issue.
    Mr. Rohrabacher. Yes. Now, again, I'm really looking at--
and, Mr. Chairman, what's important is not what we are planning 
to do but what we have. And quite often, for example, when I 
was Chairman there in your seat, we passed a bill called the 
Pete Conrad Astronomy Awards Act, which gave people awards for 
discovering the biggest Earth object out that might threaten 
the Earth.
    And, you know, it's just a very small amount of money, but, 
we've never appropriated the money for it. So it's one thing to 
have a plan and say, well, Arecibo won't be needed because 
we've got this other group telescope and it's on the way. Until 
it's there and until it's appropriated and actually put in 
space, we have to calculate on what capabilities we have at 
this point.
    And while I agree with you that the decadal study should 
show what's important, what's really important is making sure 
our Earth isn't destroyed by some space object and all of us 
die. And if there's any other priority, I think that would have 
to be the top priority. And we need to make sure that we don't 
have holes in the system as we are putting--we're planning to 
put something up. Let's make sure we keep Arecibo and other 
assets until those alternatives----
    Chairman Babin. Okay.
    Mr. Rohrabacher. --are in place.
    Chairman Babin. Thank you.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    Chairman Babin. Thank you. The gentleman's time is expired.
    Okay. Mr. Beyer from Virginia.
    Mr. Beyer. Thank you, Mr. Chairman. And, you know, we've 
had--America's had a sad week, a rough week, so thank you so 
much for coming here with so much optimism and so much energy, 
so much belief that we're doing a lot of things really well.
    And by the way, I have two of my interns here today, Alexa 
and Max, but I bring up Max because his favorite movie is 
Interstellar so he's thrilled to be here.
    So, Dr. Wright, Fred Drake 1961 came up with the famous 
Drake Equation that was going to predict how much intelligent 
life there'd likely be in the universe. That was before we had 
all these very cool telescopes. Based on all the research we've 
been able to do, you know, looking much deeper into space, how 
has that equation changed? What does it predict now?
    Dr. Wright. So I think the key one especially back at that 
time was understanding the number of extrasolar planets. At 
that time it could have been one in a million or it could be 
100 percent. We actually had no idea. And with this increase, 
we basically have 22 percent, right, it's one in five, that 
says every sun-like star has another Earth-like planet. I 
always tell the students count in fives. Go up and count five 
stars; there's another Earth-like planet staring back at you. 
That's huge.
    But as Carl Sagan pointed out and the Drake equation it's 
L. It's the lifetime of a civilization that really makes the 
big factor on the number of communicating civilizations. And so 
really it's how long a civilization we last. The lifetime of 
the universe is very long, billions and billions of years. Life 
here on our planet has been here for 3 billion years, but our 
civilization has only been here for 10,000, so it's a sliver of 
time.
    I just--SETI takes time, patience, and diligence and 
understanding, and projecting where our technology will go.
    Mr. Beyer. Great. Great. Thank you very much.
    Dr. Jones, I've always been fascinated by the oscillating 
universe model. It's going to expand until it gets--and then it 
will contract. But now that we know that the universe is 
accelerating, what does that suggest for the oscillating 
universe model?
    Dr. Jones. I think we will probably--this will be a one-way 
trip. We will be expanding and we will not be collapsing again 
so, sorry.
    Mr. Beyer. We----
    Dr. Jones. It's not--it's sort of not the optimistic view 
but----
    Mr. Beyer. So we're back to linear time then?
    Dr. Jones. Yes, I'm afraid so.
    Mr. Beyer. Darn.
    Dr. Jones. Yes.
    Mr. Beyer. Dr. Hertz, were you like born to be a physicist 
with that name or----
    Dr. Hertz. Either that or a car rental agency.
    Mr. Beyer. So, Dr. Hertz, one thing I haven't heard today 
is whether we're making any progress on understanding why 
matter in the universe is so asymmetrical. Why is there so much 
more matter than antimatter?
    Dr. Hertz. Yes, I'm going to pass that to Dr. Olinto----
    Dr. Olinto. All right.
    Dr. Hertz. --because that's one of her areas of research.
    Dr. Olinto. I'm itching to reply. So that's a very hard 
question why there's matter and not antimatter in this room, 
and we're very lucky that that's the case. Otherwise, we 
wouldn't be here because matter and antimatter annihilate. And 
this has to do with fundamental physics, which a previous 
member also mentioned. And I think that is why these broad--you 
know, this large piano that we use can address issues that 
relate to the early beginning.
    So one of the big questions is how did gravity separate 
from the other three forces and how that process which we--you 
know, is beautiful to talk about, you know, with family, at 
parties but it's also something we can measure. And so that's 
to me the most exciting part. So many answers to the questions, 
the fundamental questions you're having have to do with, you 
know, what is dark energy, including the future. If dark energy 
the case, we might heat up again so we can choose fire again 
maybe between fire and ice.
    But the early moments of the universe we can address by 
looking at the microwave background. And this is one of the 
many areas of research that, you know, the portfolio of the 
decadal survey is considering and also investing on. And it is 
an interagency--both NASA, DOE, and NSF, the three agencies we 
oversee, are investing very heavily on looking at these 
primordial microwave background patterns. By looking at the 
polarization of this light which comes from the Big Bang we can 
tell some properties of gravity at the time. And then that will 
connect to the fundamental physics that separated matter and 
antimatter, for example, so it's all a very interesting pursuit 
also.
    Mr. Beyer. Is all this tied together, Dr. Olinto, while you 
have the microphone, because you're looking at dark matter also 
and dark energy.
    Dr. Olinto. Right.
    Mr. Beyer. All related?
    Dr. Olinto. We don't know. So we don't know. We have a very 
good way to try to detect dark matter directly, and this is a 
huge effort. DOE and NSF are involved. Dark energy we are 
measuring as well as we can. It's much harder to detect. It 
would be easier if we could get out of our universe. Then we 
could measure it from the outside, but the inside is really, 
really challenging.
    It is--there are theories that connect the two and that 
would make sense since there are two unknowns. Maybe they have 
something to do with one another. But it may be that nature, 
just like in exoplanets, are much creative and we don't really 
know the answer.
    Mr. Beyer. Okay. Thank you all very much. Mr. Chair, I 
yield back.
    Chairman Babin. Thank you, Mr. Beyer.
    Now, I recognize from the gentleman from Illinois, Mr. 
Hultgren.
    Mr. Hultgren. Thank you, Chairman. Thank you all so much 
for being here. Thank you for your work. And this really is an 
exciting and important hearing for us all to learn about and 
hear about the state of astronomy, astrophysics, astrobiology 
research in the United States and also internationally. These 
are certainly some of the toughest fields requiring the best 
and brightest to devote lifetimes to their field with no 
guaranteed or big economic payoff. It takes a passion and it's 
inspiring for me to watch your work, and I want to thank you 
for your work.
    In the Committee, we will certainly continue to follow the 
recommendations of the decadal survey. And there are countless 
big ideas or future projects we could be discussing, but we all 
know that none of this can be ever even impossible if we're not 
inspiring the next generation to follow in your footsteps. 
Often that takes just a small spark in a young person's mind, 
maybe a burning question, a first telescope, robotics 
competition, simple reassurance from a parent, a friend, or a 
mentor that this is something you can do. And we need you to do 
it.
    So I want to just ask, and I've asked this before in other 
committee hearings, but I'll start with Dr. Jones and maybe if 
we can just go down the line. It's helpful for me because you 
certainly are some of the best and brightest in your field, but 
I've noticed for experts in the STEM field that there is no 
single pathway to get to where you are. So just some simple 
questions. I wonder if you have any thoughts.
    When did you know that this was something you wanted to do? 
Who inspired you? Feel free to give a quick shout-out to a 
teacher or mentor. They always could use the credit and 
recognition. So if you could maybe just let us know kind of 
your path if there was someone that inspired you and what it 
was, that maybe first spark, that idea that, hey, this is 
something interesting and something I could do.
    Dr. Jones. I've been lucky to have a number of mentors. I 
think beginning--I grew up in--near Dayton, Ohio, everybody 
likes Dayton. Good. Good. There was an honors seminar in 
metropolitan Dayton, and I went to that. We had weekly lecture. 
Kids from different high schools came in.
    And for me some of the most exciting were on the neutron 
stars, these spinning pulsars and the lectures were given by 
scientists at Wright-Patterson Air Force Base. And I worked 
when--then when I was in college I worked for a summer or two 
with somebody at Wright-Pat for those summers and it was 
terrific. So that's how I started.
    Mr. Hultgren. Dr. Wright?
    Dr. Wright. I think I knew as a little girl that I was 
addicted to the stars and the universe and trying to understand 
it. Probably the most formidable experience was in middle 
school. My science class, they decided to play the Cosmos 
series by Carl Sagan, and I was hooked by watching those. And 
then I, too, have had many mentors thankfully. When I went and 
did my physics degree at the university, I had exposures to 
telescopes, scientists, instrumentation, working in labs, and I 
think having that hands-on experience was vital for me.
    Dr. Olinto. I started more interested in physics than in 
the universe because understanding how things move, how things 
drop and the basic laws of physics to me was so much easier 
than human beings. But very soon after getting interested in 
that I realized how the universe is the best place to actually 
learn more about physics because it has all kinds of systems. 
It takes everything to the extremes. So it's been a wonderful 
path.
    And I have many other interests high school but certainly 
high school teachers were really important, also my parents. My 
father always challenged me for all kinds of math quizzes. So 
the Cosmos series, which aired in Portuguese in Brazil. So the 
outreach is really broad in that sense. So I think for all this 
production that happened here. And also the Apollo missions 
made a big impression for me as a kid.
    Dr. Ulvestad. So I was really good at math, and when I was 
in high school in my physics class, not knowing what I wanted 
to do,I remember a visiting professor from the University of 
Southern California, and it pains me to say that as the UCLA 
graduate, but that professor came and talked to us about 
cosmology, and that got me really interested in astronomy.
    And then I took advantage--in Los Angeles they have 
something called the Griffith Observatory, which is in the 
largest public park in L.A., and you can't imagine that you can 
see much of a dark sky from Los Angeles, but they had 
educational programs and a planetarium, and that really got me 
excited so that when I went to college I majored in astronomy.
    Mr. Hultgren. That's great. Thanks. Dr. Hertz?
    Dr. Hertz. Well, I was a child of the '60s and I grew up 
just loving to read about all the NASA missions that were going 
on. We lived in Atlanta and my father gave into my love by 
driving us down to the cape before the Apollo launches and we 
would camp out on the beach and wake up the next morning and 
watch them blast off to the moon. And so that set my path.
    Mr. Hultgren. That's awesome. Well, again, thank you all 
for your work. We appreciate it. Thanks for inspiring others as 
well. It's so important and that's our only hope truly is for 
our young best and brightest to be willing to follow in your 
footsteps. So thank you all. And I yield back.
    Chairman Babin. Yes, sir, very fascinating. Thank you.
    Let's see. I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thanks. And I just love those questions Mr. 
Hultgren asked and your answers. I mean, this is like coming to 
super science class for me, and I'm so surprised by my 
colleague here, Ambassador Beyer, and all that he knows about 
science. You know, me, I watched Star Trek so I worry--I think 
about the next generation is a character, the traveler, so the 
time traveler or the Q Continuum, you know, all-powerful, 
whatever. Or Heinlein, you know, talking about multi-dimensions 
and multi-universes so that you actually could be in a 
different time frame looking at our universe.
    And I'm just so speechless by all of your testimony, and I 
just thank you for being here and I thank you for your optimism 
and your willingness to research and look into the future 
because that's what this is about.
    So I'm just going to ask you a couple specific questions 
but you really have brightened my day and I thank you for that.
    Space weather, let's--Dr. Ulvestad, let me--let's talk 
about space weather a little bit. I am working with Congressman 
Moolenaar and a couple of the Senators on space weather 
legislation. I guess my question is, we had Dr. Baker from 
University of Colorado--so I'm obviously from Colorado. And 
we've recently been assigned by the NSF, the National Solar 
Observatory, and we do a lot of space weather and space 
activities in Colorado. Can you tell us how space weather 
future looks?
    Dr. Ulvestad. So some of the members may know that we've 
recently developed national space weather strategy and a space 
weather action plan, and that was an interagency activity that 
involved NASA, NSF, not just the science research agencies but 
also people who might have to respond to space weather 
outbreaks and get early warnings out such as FEMA. So that, I 
think, was a really interesting process to develop this space 
weather strategy.
    As part of the space weather strategy, NSF actually has 
some deliverables. So there's the long-term research aspects, 
and so I showed a picture of the Daniel K. Inouye Solar 
Telescope earlier. We're--really understanding the fundamental 
magnetic processes in the sun will be critical to us for 
eventually being able to predict space weather. I'm not going 
to guarantee that but understanding the sun means 10, 20, 30 
years down the road we may be able to do better at that. And 
early warning systems enable satellites to shut down and point 
in the right direction and so on so they're not damaged.
    Operationally, we right now run something called the Global 
Oscillations Network Group, which is run by the National Solar 
Observatory that, as you pointed out, is relocating to Boulder. 
And in our 2016 budget in our request we added money to make 
that a more robust system for predicting space weather. It's a 
network of six telescopes spread around the world so that it 
can, assuming it's not cloudy, observe the sun 24/7. And its 
data are actually used by the Air Force for operational space 
weather prediction.
    So I think we have a mix of both an operational role where 
we're taking some of our research capabilities and 
transitioning them to operations and also the long-term 
research role.
    Mr. Perlmutter. So I just spoke at a seminar and symposium 
on cybersecurity, and we were talking about electromagnetic 
pulses. So, you know, potentially manmade but more likely 
something coming out of the sun that--a flare of some sort that 
just fries, you know, our communications grid, our electrical 
grid, or whatever. So I hope--I mean, obviously, that's what 
you're talking in terms of the operational assistance that NSF 
is giving.
    Dr. Ulvestad. Yes, so the NSF role in that is primarily the 
research role. We don't have FEMA's job, and we don't have the 
DOE job of sort of maintaining the electric grid. So our goal 
is to be able to produce the research that will enable us to do 
better predictions in the future, and the issue of like 
hardening the electric grid is kind of out of our realm.
    Mr. Perlmutter. Just a closing thought--and, Dr. Hertz, I 
had a bunch of questions about this space shade that might help 
our telescopes--but I just want to congratulate the astronomers 
and the astrophysicists on--and somebody may have done this 
before I got here--on getting to Jupiter within one second and 
the engineers and the mathematicians and the technologists and 
everybody who helped on that. And my only question is how were 
we off by one second?
    That was rhetorical. I'll yield back to the Chair.
    Chairman Babin. Thank you, Mr. Perlmutter.
    And now, I recognize the gentleman from Ohio, Mr. Davidson.
    Mr. Davidson. Thank you, Mr. Chairman. Thank you all for 
being here. Thanks so much for the encouragement. And just an 
impressive amount of information.
    Growing up near Dayton, Ohio, near Wright-Patterson Air 
Force Base, one of the first field trips I took was to the Neil 
Armstrong Space Museum as a kid. And so it's long been an 
interest. And I found that I would not be able to pilot any of 
these aircraft so I might just jump out of some of them so--
here in our orbit, though.
    So turning away from--not to take anything away from all 
the great science we've just talked about, I want to talk a 
little bit about the science of project management. And so, Dr. 
Hertz, you mentioned about the JWST program and for 2016 the 
goal was to have the three main components--the scientific 
instruments, the telescope, and the spacecraft--completed. Is 
that project on track?
    Dr. Hertz. The James Webb Space Telescope project is on 
track. It is executing the re-plan that was laid out in 2010 
and for which Congress, thank you, has been appropriating the 
right amount of money in each year to allow us to make progress 
against that plan.
    We have not accomplished the things that you listed, but 
those were not planned for 2016. In 2016 we've assembled the 
telescope and the instruments together, and the spacecraft is 
being assembled separately in California. The telescope and 
instruments are in Maryland. The spacecraft is in California. 
At the end of next year we will be shipping the telescope and 
instruments to California to be mated with the spacecraft.
    Mr. Davidson. Okay. Thank you.
    Dr. Hertz. But we are on plan with our--on track with our 
plan.
    Mr. Davidson. Okay. Thank you. Dr. Ulvestad, the telescope 
under construction in Maui, so thank you for the physical 
picture of it. It looks great, still in progress, but a bit 
over budget. Inspector General issued an alert warning for 
further cost and schedule risks to the project. I'm just 
curious what steps has NSF taken to address the concerns, and 
how confident are you that you will meet the new project 
deadline and budget?
    Dr. Ulvestad. So we're actually quite confident that we're 
on budget so that telescope was re-baselined to a new budget in 
2013 because there was a two-year delay in access to the 
mountain due to environmental and cultural permitting issues in 
Hawaii.
    So the Inspector General report made several 
recommendations. One of the concerns was the project schedule 
was working toward a completion in late 2019 but it was always 
known that that was the schedule without the risk associated. 
That was the schedule that had a six percent probability of 
being met. Okay. The schedule that had an 80 percent 
probability of being met was the middle of 2020, June of 2020. 
So we are quite confident that we're on schedule to meet that 
80 percent date and actually to do it within our current 
baseline budget.
    Mr. Davidson. Great. Thank you. I have a question again, 
Dr. Hertz, or any others that want to comment. NASA's funding 
for large mission concept studies that will inform the 2020 
National Academy of Sciences decadal survey, NASA anticipates 
that the survey committee will use these studies in formulating 
the recommendation for priorities of the missions following 
JWST and WFIRST. What does NASA intend to learn from these 
large-concept mission studies, and how may these studies 
influence the upcoming 2020 astronomy and astrophysics decadal 
study? Are these studies intended to influence the Academies' 
review process?
    Dr. Hertz. Thank you for that question. These studies are 
to put in front of the Decadal Survey Committee some options 
for prioritizing for missions that come in the next decade. So 
each of the study teams are made up of scientists drawn from 
across the country. Each of the studies will lay out a science 
case to lay out what amazing science could be done with that 
particular mission, to lay out a notional architecture, how big 
a telescope, what temperature, what orbit, what cameras, that 
sort of thing. And then we let the engineers take a look at it, 
and they'll estimate how long it would take to build and how 
much it might cost.
    And that package that describes what such a mission might 
do and what kind of resources it might take, that can be put in 
front of the Decadal Survey Committee, and they can consider 
those as possible future missions or they can consider anything 
else they wish to consider as a possible future mission.
    Mr. Davidson. All right. Thank you. Mr. Chairman, I yield 
back.
    Chairman Babin. Thank you. Thank you very much. I want to 
thank the witnesses for their very valuable and fascinating 
testimony and for the members up here that have asked great 
questions.
    The record will remain open for two weeks for additional 
comments and written questions from members.
    And so with that, this hearing is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
